<html>
<title> - NATO EXPANSION: EXAMINING THE ACCESSION OF MONTENEGRO</title>
<body><pre>[Senate Hearing 114-712]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-712

           NATO EXPANSION: EXAMINING THE 
                        ACCESSION OF MONTENEGRO

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                SEPTEMBER 14, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-080 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  















                            C O N T E N T S

                              ----------                              
                                                                   Page

Johnson, Hon. Ron, U.S. Senator From Wisconsin...................     1

Yee, Hoyt Brian, Deputy Assistant Secretary, Bureau of European 
  and Eurasian Affairs, U.S. Department of State, Washington, DC.     3
    Prepared statement...........................................     4
    Responses to Questions for the Record Submitted to Deputy 
      Assistant Secretary Yee by Senator Corker..................    26
    Responses to Questions for the Record Submitted to Deputy 
      Assistant Secretary Yee by Senator Cardin..................    28

Carpenter, Dr. Michael, Deputy Assistant Secretary of Defense for 
  Russia, Ukraine, and Eurasia, U.S. Department of Defense, 
  Washington, DC.................................................     7
    Prepared statement...........................................     8

Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............    11
    Prepared statement...........................................    12
    Prepared statement of Senator Benjamin L. Cardin, submitted 
      by Senator Shaheen.........................................    15



            Additional Information Submitted for the Record

Open Letter to President Obama and the U.S. Congress Urging Quick 
  Action on Montenegro's Entry into NATO.........................    24




                             (iii)
 
         NATO EXPANSION: EXAMINING THE ACCESSION OF MONTENEGRO

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:25 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson, Risch, Rubio, Gardner, Paul, 
Shaheen, and Murphy.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. This hearing of the Senate Foreign 
Relations Committee will come to order.
    I would like to welcome our witnesses. I appreciate your 
testimony. We look forward to your oral testimony and your 
answers to our questions.
    I want to welcome everybody here. We do have the Ambassador 
from Montenegro here. We would like to welcome him and his 
delegation. We appreciate their good efforts toward this 
important moment in this important effort of theirs.
    The committee comes together today to analyze a significant 
milestone for one of our Nation's most important defensive 
alliances, the accession of Montenegro to the North Atlantic 
Treaty Organization. NATO has expanded only six times since its 
founding, most recently in 2009 when Albania and Croatia joined 
the Alliance. Montenegro was formally invited to join NATO in 
May 2016 after a year's long process of fighting corruption and 
strengthening its defense capabilities to meet NATO standards.
    While NATO was created to foster stability in Europe and 
counter Soviet expansionism during the Cold War, NATO remains 
especially relevant today in light of the serious threats posed 
by radical Islamic terrorism and Russian aggression.
    Russia views NATO expansion as a threat to its interests 
and has warned Montenegro that Moscow will retaliate if 
Montenegro continues to pursue NATO membership.
    Russia appears determined to do everything it can to 
prevent other countries that have expressed interest in joining 
NATO, including Georgia, Bosnia, and Macedonia, from moving 
forward with their membership ambitions.
    Russia's concerns, however, are not legitimate. NATO 
remains a purely defensive Alliance and has been a tremendous 
force for stability in Europe.
    As the Senate prepares to consider a resolution on 
Montenegro's accession to NATO, I hope that the witnesses today 
can help this committee assess Montenegro's readiness to be a 
full contributing member of the Alliance. I also hope that our 
witnesses can shed light on the challenges NATO faces today and 
its capacity to address those challenges moving forward.
    Senator Shaheen told us to move on with the hearing, and so 
when she comes, we will give her an opportunity to offer an 
opening statement.
    So why do we not move on to our witnesses? Our first 
witness is Mr. Hoyt Brian Yee. Mr. Yee is Deputy Assistant 
Secretary of State in the Bureau of European and Eurasian 
Affairs. Mr. Yee is a career member of the U.S. Senior Foreign 
Service and previously served at the U.S. embassy in 
Montenegro.
    Again, I will point out your full written statement will be 
entered into the record. So if you can keep your remarks to 
around 5 minutes, we would appreciate it. Mr. Yee?

STATEMENT OF HOYT BRIAN YEE, DEPUTY ASSISTANT SECRETARY, BUREAU 
  OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    Mr. Yee. Thank you, Senator Johnson, members of the 
committee. Thank you for the opportunity to discuss the 
critical role NATO plays in our security and Montenegro's place 
in the Alliance. In the wake of a successful summit in Warsaw 
and exactly 8 years after the committee's last hearing on NATO 
enlargement, I am honored to be here with you today.
    NATO has been and remains a principal security instrument 
of the transatlantic community. It is both a defensive alliance 
and an alliance of values.
    NATO's primary purpose was and remains to defend its 
members from attack. Additionally, NATO brought together 
western nations under a political and security umbrella where 
old rivalries could be reconciled and general peace could 
prevail.
    NATO is active on the eastern and southern flanks of the 
European continent and in other regions. NATO's impact, 
however, transcends boundaries. When the United States was 
attacked on September 11th, 2001, NATO invoked article 5 for 
the first time in its history. It was then that our European 
and Canadian allies supported us right when we needed them 
most.
    NATO is also operating in support of cybersecurity, 
counterterrorism, and counter-human trafficking operations. 
Thus, NATO has developed new capabilities for the future and 
for working with partners all over the globe.
    Against the backdrop of Russia's aggression in Ukraine and 
its occupation and attempted annexation of Crimea, NATO is 
moving forward with the most significant reinforcement of 
collective defense at any time since the Cold War. All of the 
actions we have taken to strengthen and sustain our deterrence 
and defense, require appropriate investment and capabilities, 
the development of highly capable and deployable forces, and 
burden sharing among allies.
    Already, the 27 other allies outside of the United States 
are providing for 78 percent of the NATO budget. Allies are 
making significant contributions to improve NATO's readiness, 
responsiveness, and interoperability and reverse the slide in 
defense budgets. Looking forward, all 28 allies have committed 
to move toward spending at least 2 percent of GDP on defense, 
with 70 percent already on track to meet that goal by 2024.
    After the fall of the Iron Curtain, the countries that had 
liberated themselves from communism were on unsteady ground. 
Membership in NATO and the European Union became a way to 
cement themselves in the institutions and values of the 
transatlantic world.
    Enlargement holds the potential to benefit many other parts 
of our community. NATO enlargement can bring the Balkans much 
closer to its deserved future as a site of peace and prosperity 
at the heart of Europe.
    Since Montenegro borders on five other Balkan nations, its 
NATO membership will support greater integration, democratic 
reform, trade, security, and stability with all of its 
neighbors, bringing the entire Balkans a step closer to the 
U.S. goal of realizing a Europe whole, free, and at peace. 
Montenegro accession will also have a positive impact on the 
Alliance's effectiveness, given its commitment to defense 
reform, its contributions to existing operations, and its 
willingness to continue to contribute available capabilities to 
future operations. Furthermore, with Montenegro's accession, 
the Alliance will have a nearly contiguous border along the 
Adriatic coast.
    As a NATO aspirant, Montenegro has made clear its Euro-
Atlantic trajectory is unshakeable. In 2008, it formally 
applied to join the European Union and adopted a legal 
framework that encourages privatization, employment, and 
exports. Montenegro has also taken steps to address public 
corruption and organized crime, such as establishing a new, 
independent special state prosecutor.
    On defense, Montenegro has been a reliable partner and 
force provider to NATO, the EU, and U.N. missions. It 
contributes to NATO's operations in Afghanistan. Its forces 
have participated in missions in Mali, Liberia, and Cyprus. 
Montenegro will further deploy troops to increase its level of 
participation in the EU Operation Atalanta counter-piracy 
mission off the coast of Somalia.
    In recognition of its progress and potential, allied 
foreign ministers in December unanimously agreed to invite 
Montenegro to join the Alliance. In May of this year, allied 
foreign ministers signed the accession protocol for Montenegro.
    In turn, Montenegro has gone above and beyond to show its 
willingness to be a productive member of the Alliance. It has 
been a partner on successive rounds of sanctions following 
Russia's aggression in Ukraine. In the face of Russian 
pressure, it has worked tirelessly to increase public support 
for NATO through debates, town hall meetings, and engagement 
with NGOs and a free media.
    In June, Montenegro's hard work came to fruition when its 
parliament passed a resolution with a nearly two-thirds 
majority expressing full support for membership in the 
Alliance.
    The promise of NATO membership and broad Euro-Atlantic 
integration has advanced our democratic values and respect for 
the rule of law. Montenegro's accession will help keep up this 
positive momentum.
    I wish to express my thanks to the committee. Your 
bipartisan support for a Europe whole, free, and at peace has 
served as a beacon of hope for many countries.
    Distinguished members of this committee, our work to bring 
prosperity and increased security to our partners is not yet 
over. We urge the Senate to continue its cross-government, 
historic cooperation on NATO enlargement and provide its advice 
and consent on U.S. ratification of the accession protocol for 
Montenegro.
    [Mr. Yee's prepared statement follows:]

           Prepared Statement of Assistant Secretary Hoyt Yee

    Senator Johnson, Ranking Member Cardin, Members of the Committee: 
Thank you for the opportunity to discuss NATO, the critical role it 
plays in our security and the advance of freedom, and Montenegro's 
integral part in this journey as NATO's latest invitee. In the wake of 
a successful NATO Summit in Warsaw and almost exactly eight years after 
this Committee's last hearing on NATO enlargement, I am honored to be 
here with you today.
    I will begin today with a discussion of NATO's purpose; the role 
that NATO enlargement has played in advancing security and stability in 
Europe; Montenegro's candidacy; and the future of the NATO Alliance as 
put forth in the Communique of July's Warsaw Summit.
                             nato's purpose
    NATO has been and remains the principal security instrument of the 
transatlantic community. It is both a defensive Alliance and an 
Alliance of values. It is not an alliance directed against any nation. 
Article 5--NATO's collective defense commitment--mentions neither the 
Soviet Union nor any specific adversary.
    NATO's primary purpose was and remains to defend its members from 
attack. Additionally, NATO brought together western nations under a 
political and security umbrella under which old rivalries could be 
reconciled and general peace in Europe could prevail. A third purpose 
was to institutionalize transatlantic bonds. In the Cold War, NATO 
succeeded: under its umbrella, much of Europe remained free and united.
    Article 5 remains the core of the Alliance. When the United States 
was attacked on September 11, 2001, NATO invoked Article 5 for the 
first time in its history. Even with collective defense as its bedrock, 
new threats have arisen. Today, NATO is operating in support of 
cybersecurity, counterterrorism, and counter human-trafficking 
operations throughout the transatlantic space. It is active on the 
European continent, in Kosovo, on the eastern and southern flanks of 
the European continent, and in Afghanistan and other such regions. 
Thus, NATO has developed new capabilities and skills for the future and 
for working with strategic partners all over the globe.
    Post-Warsaw and against the backdrop of Russia's aggression in 
Ukraine and its occupation and attempted annexation of Crimea, NATO is 
moving forward with the most significant reinforcement of collective 
defense at any time since the Cold War. Allies have agreed to 
institutionalize a more sustained approach to deterrence, including by 
enhancing NATO's forward presence in the East. To support this 
commitment, President Obama has requested $3.4 billion in 2017 to fund 
the European Reassurance Initiative. With your support, these funds 
will be used for the deployment of an additional rotational Armored 
Brigade Combat Team (ABCT) to Central and Eastern Europe, the 
prepositioning of combat equipment, and additional trainings and 
exercises in Europe.
    All of the actions we have taken to strengthen our deterrence and 
defense require appropriate investment in capabilities, the development 
of highly-capable and deployable forces, and most importantly, a 
healthy dose of burden-sharing among Allies. Already, the 27 other 
Allies outside of the United States are providing for 78% of NATO's 
budget. The non-U.S. share of the budget is going up again. 
Increasingly, Allies will make significant contributions to improve 
NATO's readiness, responsiveness, and interoperability and reverse the 
slide in defense budgets. All 28 Allies are moving toward spending at 
least two percent of GDP on defense with seventy percent already on 
track to meet that goal by 2024, the target date we agreed to in Wales 
and reaffirmed in Warsaw this summer.
                            nato enlargement
    After the fall of the Iron Curtain, NATO enlargement took on a 
profound strategic meaning: the countries that had liberated themselves 
from communism found themselves on unsteady ground. Membership in NATO 
and the E.U. became their main goals--a way to cement themselves in the 
institutions and values of the transatlantic world. For the United 
States and other NATO members, NATO enlargement, along with E.U. 
enlargement, became the means by which to further their own goals of 
``Europe whole, free and at peace.''
    With these incentives, Central and Eastern European countries set 
aside nationalist rivalries, and began much-needed reforms in 
governance, media freedom, and economic openness.
    NATO made its first decisions about post-Cold War enlargement in 
1999, and security, stability, and democracy deepened in Central 
Europe. The most recent round of enlargement in 2009 brought Croatia 
and Albania into our community of democracies. During the process and 
since, both countries undertook significant democratic and 
institutional reforms, affecting rule of law, media freedom, 
constitutional issues, and the defense and security sectors. They have 
stood beside us in Afghanistan and both have committed to increasing 
defense spending to 2 percent of their GDP by 2024.
                               montenegro
    The post-Cold War era has brought unprecedented peace and stability 
to much--but notably not all--of Europe. The Balkan wars of the 1990s 
were a stark reminder of this fact. NATO's engagement in the region was 
difficult, but necessary. And as declared by Alliance Heads of State 
and Government in Warsaw, NATO remains committed to the region. Our 
work there is not complete.
    We believe that NATO enlargement--along with E.U. enlargement--can 
bring the Balkans much closer to its deserved future as a site of peace 
and prosperity at the heart of Europe. Since Montenegro borders on five 
other Balkans nations, including NATO Allies Croatia and Albania, its 
NATO membership will support greater integration, democratic reform, 
trade, security, and stability with all of its neighbors, bringing the 
entire Balkans region a step closer to the U.S. strategic goal of 
realizing a Europe whole, free, and at peace. Montenegro joining NATO 
will also have a positive impact on the Alliance's effectiveness, given 
its commitment to defense reform, demonstrated contributions to 
existing operations, and willingness to continue to contribute 
available capabilities to future operations. Furthermore, with 
Montenegro's accession, the Alliance will create a contiguous border 
along the Adriatic coast.
    As a NATO aspirant, Montenegro has made clear its Euro-Atlantic 
trajectory is unshakeable. In this regard, it has been an example to 
the other aspirants in the region--Bosnia and Herzegovina, and 
Macedonia. In 2002, Montenegro adopted the Euro, and in 2008 it 
formally applied to join the E.U. Montenegro has adopted a legal 
framework that encourages privatization, employment, and exports. 
Montenegro has also taken substantial steps to address public 
corruption and organized crime, such as establishing a new, independent 
Special State Prosecutor. Montenegro's progress in strengthening rule 
of law and addressing corruption concerns will help bolster 
Montenegro's economic stability and improve its attractiveness as a 
destination for foreign direct investment.
    Montenegro has made great strides to meet NATO standards by 
implementing reforms in the defense, intelligence, and security 
sectors, and by taking to heart the mentorship given by Allies in 
successive rounds of NATO's Membership Action Plan, or MAP. Montenegro 
has been a reliable partner and force provider to NATO, E.U., and U.N. 
missions. The country contributed to NATO's operations in Afghanistan, 
most recently by providing over $1.2 million towards the sustainability 
of the Afghan National Defense and Security Forces. Montenegro 
currently has 14 troops in Afghanistan, and its forces have also 
participated in the E.U. Training Mission in Mali, the U.N. Mission in 
Liberia, and civilian police officers have been deployed to the U.N. 
Peacekeeping Force in Cyprus. Montenegro will further deploy troops to 
increase its level of participation in the E.U. Operation Atalanta 
counter-piracy mission off the coast of Somalia. Montenegro has also 
requested to participate in NATO's Kosovo Force mission (KFOR).
    Montenegro currently spends 1.68 percent of GDP on defense and, in 
accordance with Allied commitments, plans to spend 1.72 percent in 
2017, 1.75 percent by 2019, and reach the benchmark of two percent of 
GDP defense spending by 2024. It is clear that the Government takes 
seriously the financial commitment it will undertake with NATO 
membership.
    Finally, Article 10 of the North Atlantic Treaty spells out three 
mandates for new members: one, the Ally must be a European state; two, 
it must be in a position to further the principles of the Alliance; and 
three, the Ally must contribute to the security of the North Atlantic 
area. Montenegro clearly and demonstrably meets each of these criteria.
    In recognition of its progress and potential, Allied Foreign 
Ministers in December 2015 unanimously agreed to invite Montenegro to 
join the Alliance. Following the invitation, per NATO protocol, 
Montenegro has deepened its engagement with the Alliance. The country 
is already participating in virtually all sessions of the North 
Atlantic Council (NAC), and has attended all Summit and Foreign and 
Defense Ministerial sessions as an observer. Montenegro fully 
participates in Allied deliberations but cannot yet be involved in 
decision-making.
    Allies' invitation for Montenegro to join NATO affirmed the 
validity and enduring nature of the Open Door policy. In May of this 
year, Allied Foreign Ministers signed the Accession Protocol for 
Montenegro; now it is in the process of national approval procedures, 
which differ country to country. To date, six nations have deposited 
their instruments of ratification of the Accession Protocol. They are: 
Iceland, Slovenia, Hungary, Slovakia, Bulgaria, and Albania. Poland, 
and, just a few days ago, Turkey, have also completed their national 
approval procedures, meaning that more than a quarter of the Alliance 
has moved forward on NATO's invitation.
    Once the national approval processes are complete and all NATO 
Allies have deposited their respective instruments of ratification with 
the United States (the depositary nation of the Treaty), the United 
States will notify the NATO Secretary General that the Accession 
Protocol has entered into force. The Secretary General will in turn 
issue an invitation to Montenegro to accede to the Treaty. Then, upon 
Montenegro's deposit with the United States of its instrument of 
accession to the Treaty, Montenegro will legally become party to the 
Treaty and a NATO Ally.
    Since its invitation, Montenegro has gone above and beyond to show 
its willingness to be a productive member of the Alliance. It has been 
a partner on successive rounds of sanctions following Russia's 
occupation and attempted annexation of Crimea. In the face of Russian 
pressure, it has worked tirelessly over the past year and a half to 
increase public support for NATO through public debates, town hall 
meetings, and engagement with NGOs and a free media-all hallmarks of a 
democratic society. In June, Montenegro's hard work came to fruition 
when its Parliament passed a resolution with a two-thirds majority, 
expressing full support for membership in the Alliance.
    Of course, Montenegro also has its challenges. We have made clear 
that we expect reforms to continue, and to hold. But given its progress 
so far, this Administration sees a historic window of opportunity to 
have Montenegro become an official member of our transatlantic 
community with the hope that it will expand its participation as a 
member even further.
    Montenegro will be an example, not only to other countries in the 
Balkans, but also to other NATO partners. Over decades, the promise of 
NATO membership and broader Euro-Atlantic integration has advanced our 
democratic values, and respect for the rule of law. It has served as an 
incentive for nations to pursue often difficult reforms. This policy 
has yielded clear results. The Open Door policy remains viable and NATO 
stands by its foundational doctrine. The rules have not changed. 
Montenegro's accession will be an important stepping stone toward our 
vision of a Europe whole, free, and at peace.
                            looking forward
    I wish to express my thanks to the Committee for your bipartisan 
support over the years, not only on NATO enlargement, but for helping 
NATO evolve into an institution prepared for 21st century challenges. 
Your support for a ``Europe whole, free, and at peace'' has served as a 
beacon of hope for many countries that faced an uncertain future. 
Today, millions in Europe have found security, stability, and greater 
prosperity, in significant part as a result of being welcomed into the 
NATO Alliance. The advance of freedom and security in the world has 
sent a powerful message to many others that there is a reward for 
putting cooperation over conflict.
    Mr. Chairman, Ranking Member Cardin, and distinguished Members of 
this Committee, our work to bring hope, prosperity, and increased 
security to our Partners is not yet over. We urge the Senate to 
continue our cross-government, historic cooperation on NATO 
enlargement, and at the earliest opportunity to provide its advice and 
consent to U.S. ratification of the Accession Protocol for Montenegro.
    Thank you. I look forward to your questions.

    Senator Johnson. Thank you, Secretary Yee.
    Our second witness is Dr. Michael Carpenter. Dr. Carpenter 
is Deputy Assistant Secretary of Defense. In his current role, 
Dr. Carpenter is responsible for covering Russia, Ukraine, 
Eurasia, and the western Balkans. Dr. Carpenter?

STATEMENT OF DR. MICHAEL CARPENTER, DEPUTY ASSISTANT SECRETARY 
OF DEFENSE FOR RUSSIA, UKRAINE, AND EURASIA, U.S. DEPARTMENT OF 
                   DEFENSE, WASHINGTON, D.C.

    Dr. Carpenter. Senator Johnson, Senator Shaheen, and 
members of the committee, I welcome this opportunity to explain 
why the administration strongly and unequivocally supports 
Montenegro's membership in NATO.
    We firmly believe that Montenegro's membership in the 
Alliance will advance the democratic principles upon which NATO 
was founded and that Montenegro will contribute both to the 
collective defense of NATO and the broader security of the 
Euro-Atlantic region as a whole.
    During its 10 years of independence, Montenegro has emerged 
as a stable, multi-ethnic democracy committed to making tough 
but necessary reforms to its defense and intelligence sectors, 
as well as its rule of law institutions. Montenegro has right-
sized its armed forces and developed sustainable military 
capabilities for national needs and international missions. 
Montenegro's defense reforms have transformed its military into 
a more agile, capable, deployable, and NATO-interoperable 
force. In addition to its land forces, Montenegro has a capable 
rotary wing squadron, along with a well-trained and proficient 
coastal patrol and surveillance force with specialized 
boarding, diving, and underwater demining teams.
    Montenegro spends about 1.7 percent of GDP on defense, 
which ranks in the top quarter of the Alliance, and it has a 
credible plan to reach the Wales Summit pledge of 2 percent of 
GDP spent on defense by 2024.
    While Montenegro may be a small country, it has not 
hesitated to deploy its military capabilities in support of 
U.S. and NATO security priorities. Montenegro has been with us 
in Afghanistan since shortly after its independence in 2006. 
Over the course of 10 deployments, it has seen 20 percent of 
its armed forces rotate through the International Security 
Assistance Force and the Resolute Support mission. Montenegro 
has made multiple military personnel contributions to U.N. 
missions in Mali and Liberia and has offered to contribute 
troops to the NATO KFOR mission in Kosovo. It is also a member 
of the coalition to defeat ISIL and has made significant 
contributions to that effort last year and again this year.
    But the strategic significance of Montenegro's NATO 
membership to the United States cannot be measured solely by 
the additional military capabilities or troops that Montenegro 
has sent to participate in Alliance missions. Rather, the 
benefits of accession must be seen more broadly in terms of the 
security and stability that Montenegro's membership will 
project to the western Balkans. Montenegro has established 
constructive and friendly relations with all five of its 
neighbors, thereby demonstrating a clear commitment to 
promoting peaceful and friendly international relations, as set 
forth in article 2 of the Washington Treaty. Montenegro enjoys 
constructive relations with both Serbia and Kosovo and has 
actively pursued diplomatic and military cooperation with 
Albania, Croatia, Macedonia, and Bosnia-Herzegovina. And it is 
for these reasons that some of the most enthusiastic and 
dedicated supporters of Montenegro's NATO membership are its 
neighbors in Southeastern Europe.
    Finally, it is no secret that Russia has publicly opposed 
Montenegro's bid for NATO membership and taken active measures 
to foment opposition to its accession. Through its backing of 
nongovernmental organizations and politicians who oppose NATO 
membership, Russia has proven yet again that it is willing to 
interfere with a sovereign country's right to choose its own 
alliances, despite the fact that Montenegro lies some 800 miles 
from the nearest Russian border and poses no geopolitical 
threat to Russia.
    In spite of this mounting pressure, Montenegro has stood by 
its principles, rejecting a Russian bid in 2013 to use a 
Montenegrin port for its naval vessels and aligning itself with 
EU sanctions against Russia following Russia's aggression 
against Ukraine.
    Montenegro's NATO membership will be a powerful rebuke to 
Russia's malign influence in the western Balkans and 
demonstrate that no third country has a veto over NATO's 
decisions to admit new members. It will also confirm the 
countries whose values are aligned with ours and that pursue a 
responsible foreign and security policy are free to choose 
their own destiny without regard to outside coercion and 
intimidation.
    Senator Johnson, Senator Shaheen, and members of the 
committee, Montenegro is ready for NATO membership. Its 
accession to NATO will demonstrate to other countries in the 
Euro-Atlantic space that NATO's door remains open to those 
nations that share our values, implement difficult reforms, and 
meet the requirements for membership. Its accession will 
advance the Euro-Atlantic integration of the western Balkans 
and promote regional reconciliation and stability and peace in 
this historically volatile region. Its accession will result in 
a net positive contribution to the overall security of Europe.
    The administration stands ready to work with this committee 
and the Senate to advance the longstanding bipartisan goal of 
realizing a Europe whole, free, and at peace by supporting 
Montenegro's as-soon-as-possible accession to NATO.
    Thank you and I look forward to your questions.
    [Dr. Carpenter's prepared statement follows:]

                Prepared Statement of Deputy Assistant 
               Secretary of Defense Michael R. Carpenter

    Senator Johnson, Ranking Member Cardin, and members of the 
committee, I welcome this opportunity to explain why the administration 
strongly and unequivocally supports Montenegro's membership in the 
North Atlantic Treaty Organization (NATO). Article 10 of the Washington 
Treaty states that Allies may by unanimous agreement ``invite any other 
European State in a position to further the principles of this Treaty 
and to contribute to the security of the North Atlantic area to accede 
to this Treaty.'' The administration strongly believes that 
Montenegro's membership in the Alliance will advance the democratic 
principles upon which NATO was founded, and that Montenegro will 
contribute both to the collective defense of NATO and the broader 
security of the Euro-Atlantic region as a whole, particularly in the 
Western Balkans.
    The Senate's advice and consent to admit a new member to the 
Alliance is a solemn undertaking that follows a thorough review of the 
candidate's qualifications and commitments. A careful review of 
Montenegro's candidacy shows that it has transformed its military to 
make it interoperable with NATO, enacted necessary reforms to meet the 
Alliance's benchmarks for membership, and demonstrated solidarity with 
Allies by participating in overseas missions and aligning its foreign 
and security policies with those of the Alliance. Montenegro has 
demonstrated that it shares and will further advance the values of 
democracy, individual liberty, and the rule of law, and that it will be 
a net contributor to the security of the Euro-Atlantic area. Finally, 
and perhaps most importantly, Montenegro's membership will also bring 
the Alliance one step closer to realizing the strategic vision of a 
Europe, whole, free and at peace.
    Montenegro emerged as an independent nation ten years ago, in the 
aftermath of the tumultuous Balkan wars of the 1990s. Within a month of 
independence, it joined NATO's Partnership for Peace (PFP) program. In 
2009, it received a Membership Action Plan, allowing it to chart its 
own course towards membership in the Alliance. In 2008, it also began a 
parallel process of accession to the European Union (EU), and to date 
it has opened 24 of 35 chapters of the E.U.'s acquis communautaire. 
During its ten years of independence, Montenegro has emerged as a 
stable, multi-ethnic democracy committed to making tough but necessary 
reforms to its rule of law institutions, as well as its defense and 
intelligence sectors. It has established constructive and friendly 
relations with all five of its neighbors, thereby demonstrating a clear 
commitment to ``contribute toward the further development of peaceful 
and friendly international relations.by promoting conditions of 
stability and well-being'' as set forth in Article 2 of the Washington 
Treaty.
                    defense and intelligence reforms
    As a NATO aspirant, Montenegro has adopted comprehensive reforms of 
its defense and intelligence institutions. In the defense sphere, 
Montenegro has right-sized its armed forces and developed sustainable 
military capabilities for national needs and international missions. 
These reforms have been guided by NATO's Membership Action Plan and by 
Montenegro's own Strategic Defense Review, which was completed in 2013 
with the assistance of experts from the Department of Defense.
    Montenegro's defense reforms have transformed its military into a 
more agile, capable, deployable, and NATO-interoperable force. They 
include transitioning Montenegro's land forces from a brigade-level to 
a battalion-level structure; modernizing its strategic human resource 
management policies and processes; developing logistics skill sets 
consistent with NATO best practices; amending Montenegro's Law on 
Defense to allow for the adoption of NATO standards; and reorganizing 
the General Staff into a structure consonant with NATO practices.
    Concurrently with these structural reforms, Montenegro has 
strengthened the operational capabilities of its Armed Forces though 
training and acquisition of modern NATO-interoperable equipment. An 
infantry company was certified in 2014 by the Alliance as fully 
interoperable, trained, and equipped in compliance with NATO standards, 
and Montenegro has officially declared it for use in NATO-led 
operations. Montenegro has also declared a second infantry company for 
NATO use that is currently undergoing the certification process. 
Likewise, Montenegro has undertaken deep, structural reform of its 
intelligence enterprise, making necessary changes to institutions and 
personnel with NATO's guidance and supervision. Montenegro has also 
enacted important reforms to its rule of law institutions.
      montenegro's military capabilities and overseas deployments
    With a population of just over 600,000 people and a military force 
of just under 2,000 members, Montenegro's accession to NATO will not 
significantly expand the Alliance's military capabilities. However, 
what it lacks in size is more than compensated by location, niche 
capabilities, and willingness to deploy its military forces overseas in 
support of Alliance missions. Furthermore, Montenegro's compact 
territory located on the Adriatic coast, bordering two NATO Allies as 
well as PFP partners and E.U. aspirants, poses few military 
vulnerabilities or challenges for the defensibility of the Alliance. 
The inclusion of Montenegro's 182 miles of Adriatic coastline will make 
almost the entire north shore of the Mediterranean Sea (save for just a 
few miles of Bosnian coastline) part of NATO's operational space. As 
for its military capabilities, in addition to its land forces 
Montenegro has a capable rotary-wing squadron that is undergoing 
modernization, along with a well-trained and proficient coastal patrol 
and surveillance force with specialized boarding, diving, and 
underwater demining teams. Montenegro also spends about 1.7 percent of 
its GDP on defense, which ranks in the top quartile of the Alliance, 
and has a credible plan to reach the Wales Summit pledge of 2.0 percent 
of GDP spent on defense by 2024.
    While Montenegro may be a small country with modest military 
capabilities, it has not hesitated to deploy those capabilities in 
support of U.S. and NATO security priorities. Montenegro has been with 
us in Afghanistan since shortly after its independence in 2006, and 
over the course of ten rotations has seen 20% of its armed forces 
deployed to the International Security Assistance Force (ISAF) and the 
Resolute Support Mission. Montenegro has made multiple military 
personnel contributions to U.N. missions in Mali and Liberia, and is 
exploring a further role in U.N. peacekeeping missions. It has offered 
to contribute troops to NATO's Kosovo Force (KFOR), which NATO is 
currently considering. In July of this year, Montenegro's parliament 
approved its participation in the E.U.'s counter-piracy mission off the 
coast of Somalia, in which a boarding team will protect a U.N. vessel 
with the World Food Program.
    Montenegro also contributes to global security in other ways. It 
contributed $1.2 million for the sustainability of the Afghan National 
Defense and Security Forces during the period from 2015-2017. In 2015, 
Montenegro made a sizable donation of ammunition in support of counter-
ISIL efforts in Iraq, and it made an additional donation of mortar 
rounds to the counter-ISIL Coalition this year.
             security and stability in the western balkans
    It is the administration's firm belief that the benefits of 
Montenegro's NATO membership to the United States cannot be measured 
solely by the additional military capabilities or operational space 
that Montenegro affords the Alliance. Rather, the benefits of accession 
must be seen more broadly in terms of the security and stability that 
Montenegro's membership will project to the Western Balkans, a 
vulnerable region that was wracked by war less than a generation ago.
    The history of NATO enlargement shows that the benefits of this 
process accrue not just from the pooling of military resources, but 
from the security, stability, and cooperative relations that NATO 
membership brings to those countries that commit to NATO's founding 
principles. From the accession of post-Francoist Spain in 1982 to that 
of the post-Communist states of Central Europe after the end of the 
Cold War, the benefits of collective defense and the habits of 
multilateral military cooperation have had a transformative effect 
across the entire region, cementing historical reconciliation among 
erstwhile adversaries and allowing commerce and prosperity to flourish 
across Europe. NATO's latest round of enlargement in 2009 to Croatia 
and Albania finally brought the transformative benefits of this 
enlargement process to the Western Balkans. Montenegro's accession as 
the 29th member of the Alliance will further project security and 
stability into the Western Balkans and demonstrate to the region's 
remaining NATO and E.U. aspirants that the implementation of tough but 
necessary reforms has a real payoff.
    We are less than a generation removed from a decade of war in the 
Western Balkans. While the region has come a long way since then, we 
have an obligation not to forget our commitment to realizing a Europe 
whole, free, and at peace. In many ways, the Western Balkans remains a 
piece of unfinished business and, as recent headlines from the region 
demonstrate, reconciliation is incomplete. However, despite the recent 
resurgence of demagogic populism and nationalism across Europe, it is 
telling that every single country in the Western Balkans has chosen to 
pursue Euro-Atlantic integration as the best guarantee of its long-term 
peace, security, and prosperity.
    In pursuit of these Euro-Atlantic aspirations, Montenegro used its 
ten years of independence to build constructive and peaceful relations 
with all its neighbors. As a former constituent part of the Federal 
Republic of Yugoslavia, Montenegro retains peaceful and constructive 
relations with both Serbia and Kosovo, having been one of the first 
nations in the world to recognize Kosovo's independence. It has 
actively pursued close diplomatic and military cooperation with 
Albania, Croatia, Macedonia, and Bosnia and Herzegovina through the 
Adriatic Charter organization. It has also built partnerships widely 
across Europe through its active participation in NATO's Partnership 
for Peace, contributing for example to one of NATO's Trust Funds for 
Ukraine. It is for these reasons that some of the most dedicated and 
articulate supporters of Montenegro's NATO membership are its neighbors 
in Southeastern Europe--Croatia, Albania, Slovenia, Hungary, Bulgaria, 
Romania, and Turkey.
    Finally, for the non-NATO countries in the region, whether they be 
NATO or E.U. aspirants or both, Montenegro's accession to NATO will 
clearly demonstrate the Alliance's commitment to maintaining an ``Open 
Door'' and prove that sometimes difficult reforms and tough decisions 
will eventually have positive consequences. NATO's remaining aspirants 
have therefore all embraced and applauded Montenegro's membership in 
the Alliance.
     countering russia's malign influence and standing on principle
    As a final consideration, although we no longer live with the stark 
dualities of the Cold War, it is no secret that Russia has publicly 
opposed Montenegro's bid for NATO membership and taken active measures 
to shape public opinion in the Western Balkans to oppose its accession. 
Through its backing for non-governmental organizations and politicians 
who oppose NATO membership, Russia has proven yet again that it is 
willing to interfere with a sovereign country's right to choose its own 
alliances--despite the fact that Montenegro lies some 800 miles from 
the nearest Russian border and poses no geopolitical threat to Russia.
    Particularly in the last 12 months, a sophisticated foreign-
financed propaganda campaign has sought to undermine popular support 
for NATO accession, despite parliamentary votes in September 2015 and 
June 2016 that overwhelmingly confirmed the consensus within the 
Montenegrin parliament in support of NATO membership. In spite of this 
mounting pressure from abroad, Montenegro has stood by its principles, 
rejecting a Russian bid in 2013 to use a Montenegrin port for its naval 
vessels and aligning itself with E.U. sanctions against Russia 
following Russia's aggression against Ukraine.
    Montenegro's NATO membership will be a powerful rebuke to Russia's 
malign influence in the Western Balkans and demonstrate that no third 
country has a veto over NATO's decision to admit new members. It will 
also confirm that countries whose values are aligned with ours and who 
pursue a responsible foreign and security policy are free to choose 
their own destiny without regard to outside coercion and intimidation.
                               conclusion
    Senator Johnson, Ranking Member Cardin, and members of the 
committee, Montenegro is ready for NATO membership. Its accession to 
NATO will demonstrate to other countries in the Euro-Atlantic space 
that NATO's door remains open to those nations that share our values, 
implement difficult reforms, and meet the requirements for membership. 
Its accession will advance the Euro- Atlantic integration of the 
Western Balkans and promote regional reconciliation, stability, and 
peace in that historically volatile region. Its accession will result 
in a net positive contribution to the overall security of Europe.
    It is my great honor to appear before this Committee and to advance 
the longstanding bipartisan goal of realizing a Europe whole, free, and 
at peace by supporting Montenegro's accession to the North Atlantic 
Treaty Organization.

    Senator Johnson. Thank you, Dr. Carpenter.
    Now I would like to welcome Senator Shaheen for her opening 
comments.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you, Senator Johnson. I have a full 
statement that I will submit for the record. But I did want to 
reaffirm several points.
    First of all, as we have heard from both of our witnesses, 
Montenegro's accession to NATO has only come after meaningful 
reforms in its security sector. And I know those are reforms 
that we have supported. Its accession will also serve to 
further anchor the Balkan region and the security framework of 
NATO. And in fact, the last time this committee held hearings 
to consider the accession of a new NATO member, Croatia was on 
the agenda. Bosnia and Herzegovina, which began its talks with 
NATO in 2008, aspire to join the Alliance, as does Macedonia. 
So it is my hope that this will serve as another example of 
meaningful reforms that lead to positive membership in NATO.
    I think more broadly Montenegro's achievement reaffirms 
NATO's open-door policy for aspirant nations who share the 
values of all NATO members. NATO must stand firm on the 
principle that the decision to seek membership in the Alliance 
cannot be blocked by a third party, and this is particularly 
important when we see Russia's attempt to undermine 
democratically elected governments that have sought to 
integrate with Euro-Atlantic institutions.
    For all these reasons, I am pleased that NATO has offered 
Montenegro a place in the Alliance, and my hope is that 
consideration of Montenegro's accession protocol can move 
expeditiously through the Senate.
    So as I said, Mr. Chairman, I have a full statement that I 
will submit for the record.
    [Senator Shaheen's prepared statement follows:]

              Prepared Statement of Senator Jeanne Shaheen

    Thank you, Senator Johnson. Thank you Chairman Corker and Ranking 
Member Cardin for scheduling this important hearing today. And thank 
you Deputy Assistant Secretaries Yee and Carpenter for agreeing to 
testify before the committee today on Montenegro's Accession to NATO.
    Since achieving its independence just 10 years ago, Montenegro has 
consistently pursued inclusion in Euro-Atlantic institutions. Just 
months after gaining independence, Montenegro elected to join NATO's 
Partnership for Peace Program, which led to the formulation of its 
Membership Action Plan just three years later. Finally, as you all 
know, in December, 2015 Montenegro was formally invited to join the 
Alliance and later signed its accession protocol in May of this year.
    Montenegro's accession to NATO has only come after meaningful 
reforms in its security sector, as well as to the laws that govern its 
judiciary. Montenegro has also been a reliable contributor to the NATO 
mission in Afghanistan since 2010, and has joined NATO allies in 
imposing sanctions on Russia in response to its violation of Ukraine's 
sovereignty. Montenegro's accession to NATO is an important opportunity 
to recognize the contributions that it has already made to the 
Alliance, and its accomplishments in taking the political steps 
necessary to reach this point.
    Montenegro's accession will serve to further anchor the Balkan 
region in the security framework of NATO. The last time this committee 
held hearings to consider the accession of new NATO members, Croatia 
was on the agenda. Bosnia and Herzegovina, which began its talks with 
NATO in 2008, aspires to join the Alliance, as does Macedonia. It is my 
hope that the Alliance will continue to invest in this region where the 
U.S. and NATO have historically played such a crucial role in resolving 
serious conflicts.
    More broadly, Montenegro's achievement reaffirms NATO's open door 
policy for aspirant nations who share the values of all NATO members 
and stand ready to contribute to NATO operations.
    NATO must stand firm on the principle that the decision to seek 
membership in the Alliance cannot be blocked by a third party. This is 
particularly important when we see Russia attempt to undermine 
democratically elected governments that have sought to integrate with 
Euro-Atlantic institutions.
    For all these reasons, I am pleased that NATO has offered 
Montenegro a place in the alliance and my sincere hope is that 
consideration of Montenegro's accession protocols can move 
expeditiously through the Senate.
    I'd also ask that this open letter to Congress urging quick action 
on Montenegro's accession to NATO from a bipartisan group of diplomats, 
national security experts and former administration officials, be 
included for thehearing's official record.

    Senator Johnson. Thank you, Senator Shaheen.
    We are going to have votes called at 2:45. So we are going 
to have to figure out how we work that among members. I would 
like to keep the hearing going.
    I will start with questions. I want to go right to the 
instability of the meddling of Russia in this process. 
Secretary Yee, we have heard this repeatedly in hearings with 
our subcommittee of Russia just destabilizing its neighbors 
that are trying to--let us face it--throw off the yokes of the 
legacy of corruption and trying to establish themselves as a 
democracy and greater freedom and greater economic prosperity.
    Can you just offer some rationale in terms of why Russia 
continues to do this? As you point out, Montenegro is 800 miles 
from Russia. It poses no threat whatsoever.
    Mr. Yee. Thank you, Senator Johnson, for the question.
    It is our understanding that Russia would like to preserve 
as much influence as it can throughout Europe, including in the 
Balkans where it has historic ties and has a number of 
commercial and political ties with governments in the Balkans. 
So its aim is to preserve and to extend as much as possible 
this influence. And part of that extension and preservation 
involves preventing countries like Montenegro from aligning 
themselves even more closely with the European-Atlantic 
institutions such as NATO and the European Union.
    So we have seen attempts, some mentioned by my colleague, 
Dr. Carpenter, of Russia to interfere, to dissuade, to present 
obstacles to these countries joining those organizations, but 
we have seen, fortunately, that countries like Montenegro, 
Croatia, other countries aspiring to NATO membership have been 
successful, along with our help, the strong support from the 
United States and other allies in pushing back both in terms of 
the economies of these countries being more closely aligned 
with Europe and the United States, with their security systems 
becoming more closely aligned, with energy, energy security 
becoming more of an instrument for cooperation among the 
countries in the Balkans and more widely through Europe. We 
have been successful in preventing some of that malign 
influence.
    Do we expect Russia to continue? Most likely, yes. But what 
is important is that we use all available tools to push back to 
help those countries that you mentioned, Senator Johnson, that 
are trying to throw off the past repressive influences or to 
move forward towards Euro-Atlantic integration.
    Senator Johnson. Can you cite specific examples of how 
Russia meddles, you know, how they interfere? Or Dr. Carpenter. 
Either.
    Mr. Yee. I will give one example perhaps, Senator Johnson, 
in the example of Montenegro. And I am confident Dr. Carpenter 
will have other examples as well.
    What we have seen in Montenegro is the political leaders 
from Russia expressing very publicly their views that 
Montenegro should not join NATO in somewhat menacing terms. For 
example, Deputy Prime Minister Rogozin recently early this year 
made a statement that Montenegro would live to regret its 
decision regarding the NATO. The Russian Duma made a statement 
that Montenegro should consider the serious consequences it 
will incur if it proceeds towards----
    Senator Johnson. What would those consequences be? What 
kind of sway, what type of influence would Russia have that 
would actually make that threat credible?
    Mr. Yee. Well, I think it is difficult to know exactly what 
they would do, but I think what we have seen in other places is 
an attempt to influence individual politicians, occasionally 
institutions through direct political contact or bribery or 
other extralegal means of influencing politicians and 
institutions. We have not seen anything more malign than what 
Dr. Carpenter mentioned earlier about the Russians, for 
example, seeking a port in Montenegro to base their naval 
forces. But these are all attempts at the same thing, which is 
to maintain the traditional place of influence that Russia has 
had and to prevent Montenegro and other countries from moving 
closer towards NATO.
    Senator Johnson. I know Montenegro's parliament has been 
very supportive of this. What about the general population? Is 
there some risk down the road that Russia's influence could 
undermine this in terms of popular vote?
    Mr. Yee. The popular support for NATO enlargement has 
steadily increased over the last year. As Montenegro has come 
closer to being invited, more and more Montenegrin citizens 
have supported Montenegro's path. The current figure is about 
46.6 percent of popular support in favor according to the 
latest poll; 38.8 percent opposed. So there is a strong part of 
the population that is at least skeptical about NATO 
enlargement, but the trend is positive. As Montenegrins learn 
about the benefits of the enlargement process of being part of 
the Euro-Atlantic community, more and more will support it.
    We do believe that Russia through its messaging, including 
very public, direct messaging from its political leaders, but 
also through media that it can influence is spreading messages, 
misinformation about NATO, which we need to be alert to and to 
help our Montenegrin friends push back against.
    Senator Johnson. Thank you, Secretary Yee.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Just to follow up a little bit on Senator Johnson's line of 
questioning, if there are attempts by Russia to punish 
Montenegro for its joining NATO, are there ways in which NATO 
can help Montenegro respond to Russian action? Either one of 
you.
    Mr. Yee. Well, I will start. Yes, Senator Shaheen.
    Senator Shaheen. And can you delineate some of those?
    Mr. Yee. The first line of defense is NATO solidarity with 
its members. All members know and its partners know that it can 
count on NATO to respond appropriately, whatever is necessary 
to defend a NATO ally, NATO, the United States in particular, 
has committed to do. So in the first instance I think is 
reaffirming all of our determination to protect Montenegro's 
territorial integrity, its sovereignty. All of the tools which 
NATO has to help other partners and allies would be put at the 
disposal of Montenegro. For example, our experience in public 
diplomacy, our training and exercises with allied and partner 
militaries to demonstrate NATO's commitment and to enhance 
their resilience to malign influences, all the tools that NATO 
has which are considerable can be put for the assistance of 
Montenegro and other partners who are facing the same 
challenges.
    Senator Shaheen. Great. Thank you.
    Just to be clear, they just called the vote. Senator 
Johnson has gone to vote, but for others who may want to do 
that, we will continue the hearing through the vote.
    My understanding is the Russians have a significant amount 
of investment in Montenegro. Is there any effort to further 
diversify the Montenegrin economy? And is this something that 
we should be concerned about as we are looking at the future, 
the amount of investment that Russia has?
    Mr. Yee. Absolutely, Senator Shaheen. This is one of the 
main purposes of helping Montenegro strengthen its economy as a 
market economy, an open and transparent economy that is 
competitive with other European countries so that it can 
attract the type of businesses and investments from Europe, 
from America, from within the Balkans that would be at least 
competition to businesses from Russia, other places that are 
used to operating in an environments in which there is not a 
strong rule of law, where there is not transparency, where 
certain business techniques are more acceptable than, let us 
say, in Europe or the United States.
    So our assistance is directly targeted at helping 
Montenegro strengthen its competitiveness, strengthen economic 
growth, decrease unemployment, and to help Montenegro in 
particular fight corruption and organized crime, which is a 
traditional avenue through which Russia and other actors can 
promote its business interests at the expense of others in a 
less transparent way.
    So we are very much aware of the challenge. Montenegro is 
doing much better at fighting corruption. It strengthened its 
economy. Just last year, it moved up 15 places in the rankings 
on Transparency International's perceptions of corruption 
index, which shows the trend is positive, and we will do 
everything possible to keep that trend going.
    Senator Shaheen. That is great.
    I am a big believer that stability in the Balkans is very 
important to the security of Europe and see this, as I have 
said in my remarks, as a very positive move for Montenegro to 
join NATO.
    What lessons are there in this for other countries in the 
Balkans, for Macedonia, for Bosnia-Herzegovina, as they 
hopefully look towards better Euro-Atlantic integration and 
opportunities for them? I have worked with folks in Bosnia for 
several years now regarding their interest in joining NATO, and 
I know it continues. So are there things, lessons from this 
effort that they can look to and hopefully adopt and that we 
can support them as they think about what they can do to accede 
to NATO?
    Mr. Yee. Senator, I would say that the most important 
lesson that the other aspirant countries can draw from the 
Montenegrin experience--and you alluded to it in your opening 
remarks--is that if they are willing to make the tough 
decisions, the sacrifices, make the reforms necessary in order 
to become able to join NATO and the European Union, that it is 
possible. In other words, the door is open if they are willing 
to make the sacrifices necessary. Montenegro has done this. It 
still has work to do, but it is making progress towards the 
European Union and, with Senate support, we hope will join 
NATO.
    Senator Shaheen. Thank you. My time is over. But I would 
ask unanimous consent to submit for the record testimony from 
Senator Cardin, who was not able to be here.
    [The prepared statement of Senator Cardin follows:]


            Prepared Statement of Senator Benjamin L. Cardin

    We meet today to discuss the admission of Montenegro to the North 
Atlantic Treaty Organization. This is one of the most important 
responsibilities that this committee has, and I appreciate the 
Chairman's willingness to hold this hearing amid a very busy agenda for 
the committee. I want to acknowledge the presence of Montenegro's 
Ambassador to the United States Srdjan Darmanovic (Sir-jaan Darmaano-
vich) who has been a good friend to this committee and able 
representative of his country here in Washington for several years. 
Welcome Mr. Ambassador.
    Does Montenegro fit this standard? I believe that it does, but I 
would like our witnesses to address a series of concerns which have 
been raised. Perhaps more importantly, I would like them to address how 
we can encourage a reform process to continue even after NATO 
membership is achieved.
    Montenegro has also taken important steps to reorganize and reform 
its defense ministry and intelligence services. I would like to know 
what regional impact these reforms could have in the Balkans, including 
in the effort to counter ISIS. As we know, ISIS recruitment is a 
growing problem in several Balkan countries, including Kosovo, that 
must be addressed.
    Admission of Montenegro would mark another important step towards 
fully integrating the Balkans into international institutions which 
have helped to contribute to peace and stability over the years in 
Europe. Croatia and Albania joined the Alliance in 2009 and have been 
valuable contributors to accomplishing NATO objectives since then. And 
I hope that Montenegro's admission will help to motivate the reforms 
necessary in other Balkans countries to join.
    We cannot have a discussion about NATO without highlighting the 
increasingly negative role Russia is playing in the Balkans and across 
much of Eurasia. The last time this committee met to deliberate on NATO 
membership for Albania and Croatia in 2008, Russia had just invaded 
Georgia. Since then, the case for NATO solidarity and expansion has 
only grown as Russia invaded Ukraine and illegally occupies Crimea.
    Now Russia has worked to influence Montenegro's membership in NATO. 
It has funded campaigns against NATO in Montenegro to influence public 
opinion on the alliance. But it hasn't worked. Montenegro's parliament 
and people remain committed to the Alliance. In fact, Montenegro is a 
supporter of EU sanctions on Russia and has proven to be a reliable 
partner in the EU's periphery on standing up to Moscow.
    Finally, we hope that Montenegro's accession will send a positive 
signal to other Balkan countries at a particularly critical 
time.Macedonia continues to seek a way out of its political crisis, 
Kosovo faces its own political turbulence and, perhaps of most 
immediate concern, Bosnian Serb leaders are later this month 
challenging international resolve and questioning Bosnia's future by 
staging their own referendum. I would like to see the United States 
play a leadership role responding to these challenges, supporting our 
EU partners of course, but not at the expense of doing what's right for 
these countries which also aspire to eventual NATO membership. There is 
unfinished work in the Balkans and U.S. leadership is key to resolving 
these long standing issues.


    Senator Shaheen. Thank you.
    Senator Rubio?
    Senator Rubio. Thank you, Senator Shaheen. Thank you both 
for being here.
    I wanted to briefly state on the record that I am a big 
believer that NATO has a purpose today that is perhaps as 
important as any in the last 20 years. I believe deeply the 
world is a safer and a better place and Americans are more 
prosperous when our country is able to lead, and our alliances 
are a critical component in that leadership.
    I would remind everyone that our NATO allies have fought 
beside us in Afghanistan. They have provided more than 1,100 
soldiers in the part of that coalition, 1,100 soldiers who paid 
the ultimate price. And as in these critical times, the U.S. 
needs to continue to support our allies as we work to ensure 
our interests, our collective interests abroad.
    I have always argued that when our alliances, especially 
NATO, are under pressure from our foes, we need to continue to 
expand and allow countries who meet the standards set by the 
Alliance to join. This has never been more important than it is 
now, given the uncertain security situation we face in Europe.
    That is why I am so glad we are moving to ratify 
Montenegro's access to NATO, and that is why it is so important 
for our allies around the world to know that. No matter the 
outcome of our election, you will have in me and I believe in 
many of my colleagues here in the United States Senate very 
strong support for this alliance that I think in time will be 
proven, if challenged.
    With that, in the interest of time, because I know we are 
in the middle of votes, I just want to ask a very 
straightforward question that I hope both or one of you can 
answer for the record, and that is, is it the policy of the 
United States that Russia shall not have a veto over a 
potential country's membership in NATO?
    Mr. Yee. The short answer, sir, is yes.
    Senator Rubio. That is a good answer.
    Dr. Carpenter. Senator, yes. It has been our longstanding 
policy that no third country, including Russia, has a veto over 
any Alliance decisions.
    Senator Rubio. Thank you.
    Senator Shaheen. Thank you, Senator Rubio.
    Senator Murphy?
    Senator Murphy. Thank you very much, Senator Shaheen.
    Welcome to both of you.
    I join Senator Rubio in strong support for the NATO 
Alliance, and I think as he points out rightly, there is only 
one time that article 5 has been exercised and it was not in 
defense of our allies in Europe. It was in our defense, and 
they all rallied to it.
    My question is a follow-up on Senator Shaheen's. I have 
been a longstanding supporter of Montenegro's accession to NATO 
since I visited Vujanovic and others there 2 years ago, and so 
I am glad to see that we are taking these final steps.
    But I do worry about the message that is being sent to 
Balkan nations when it comes to their ability to join 
transatlantic and European institutions, given what is 
happening in the EU today. And so I think that this decision to 
move forward with enlargement is even more important in the 
context of an EU institution, which appears at the very best 
frozen and at worst in retraction.
    So I guess let me pose the question a little bit 
differently. As we are trying to help countries like Serbia, an 
incredibly important ally, a country that is legitimately 
caught between an historic alliance with Russia and a desire to 
join European-Atlantic institutions, is this step forward not 
to show that the open-door policy remains in NATO even more 
important given some legitimate questions that are being asked 
right now in the Balkans as to whether their path forward to EU 
membership is maybe looking a little bit more perilous or a 
little bit more treacherous?
    I know we cannot solve that problem for the Europeans. That 
has to be their decision. But ultimately it is in our best 
interest if we are growing membership more broadly in 
transatlantic institutions, and to my mind, NATO is more 
important now than ever. Just to get your thoughts on that, Mr. 
Yee.
    Mr. Yee. Thank you, Senator Murphy, for the question, for 
your longstanding support for the region.
    My answer is yes. NATO enlargement, the open door, NATO's 
role, the U.S. role in south central Europe is more important 
than ever in large part because of the tumult that is occurring 
in Europe.
    Of course, as we all know, there is no substitute for 
European Union enlargement and the European Project. And we 
certainly do hope that it will continue even though it is in 
this current phase of great difficulty. As Vice President Biden 
has said, the European Project and the enlargement process is 
possibly the most successful force for prosperity and stability 
and security in history, and we very much need to see that 
continue.
    NATO has been part of that, and while it cannot substitute 
for European Union membership, it can provide a lot of the same 
incentives to Balkan countries in making the tough reforms that 
they might not otherwise make. It provides certainly security 
and stability for those that are able to meet the criteria for 
membership. And it sends a strong signal to those actors 
outside of the region who may not have the best interests of 
the region, by our standards, in mind. That the United States 
and European allies remain committed to the Balkans that we are 
not going to leave it to its own devices, that we remain 
committed that we believe that it is essential for Europe and 
for the United States, indeed our security, that the Balkans 
are brought into the same security structures, the same 
institutions that other NATO allies have benefited from so 
long. So our view is that we must continue to keep the door 
open to those members that are willing to meet and able to meet 
the standards.
    Senator Murphy. Dr. Carpenter, a quick follow-up to you. 
How do we make sure that after we are hopefully successful in 
brining Montenegro into the Alliance, that the pressure remains 
for their progress on reform to continue? We have members of 
the Alliance today who have not made the progress that we would 
have hoped in the same region, frankly, since they joined. So 
what are the ways in which we can continue to pressure these 
reforms even after they are successful in joining the NATO 
Alliance?
    Dr. Carpenter. So, Senator, thanks for the question.
    I think on the military side, having allies at the table at 
28 and if Montenegro is admitted to the Alliance, at 29 will 
encourage peers to pressure others to live up to their 
obligation to the Alliance whether it be the Wales pledge of 2 
percent of GDP spent on defense or the other part of the Wales 
Summit pledge for 20 percent of investments to be spent on 
capital modernization. So that is one avenue to keep the 
pressure on.
    But outside of the narrow military lane, there is also the 
mutually reinforcing process of Montenegro's EU integration 
which requires the opening of a lot of chapters of the EU 
aquis, which again deal with some of the issues that were 
brought on the table as part of the NATO integration process 
concerning rule of law and so on and so forth. Those are also 
elements of the EU integration process.
    So I think for Montenegro there will be a continuing stream 
of points along the road in the coming months and years whereby 
they will be on record as being studied on the basis of their 
reform track. And if they do not live up to that, there will be 
consequences. So it is both the EU process and it is also 
internally to NATO. It is sitting at the table with 28 other 
peers and explaining how you are spending your defense dollars 
and how you are contributing to international missions to 
support NATO.
    Senator Murphy. I thank you both, and I look forward to 
working in a bipartisan way to support Montenegro's inclusion 
in the NATO Alliance.
    Thank you, Senator Shaheen.
    Senator Shaheen. Thank you, Senator Murphy.
    We are going to recess the hearing for a few minutes. 
Senator Johnson has not returned and our time is up to go vote. 
I assume someone will be back in a few minutes. [Recess.]
    Senator Johnson. This hearing will come back to order.
    Again, I apologize for the votes. It is one of the things 
we do here.
    Dr. Carpenter, I would like to just have you describe a 
little bit in more greater detail what Montenegro has done in 
terms of bringing its military up to NATO standards and really 
what is required of it.
    Dr. Carpenter. Senator, Montenegro has thoroughly reformed, 
root and branch, its military. So it has taken what was a 
hollowed-out brigade-level structure and transformed it into a 
much more agile and capable battalion-level structure.
    Its military is small, about 2,000 members in total. But 
they have some significant niche capabilities that they have 
put money into and they have developed over the years. One is 
mountain warfare. One is coastal surveillance and patrolling. 
Another one is underwater demining. So they have focused on 
some of these niche capabilities and continue to do so. They 
have a small helicopter rotary wing squadron that they are 
developing and modernizing, and they are seeking additional 
platforms for that.
    But they have really taken a hard look at their military 
from top to bottom. They have changed the way they do human 
resources management to align it with NATO standards. They have 
changed and continue--are actually in the process of changing 
the way they do logistics both to make it more transparent but 
also again to adapt to NATO standards.
    So they have really done a tremendous job over the course 
of the last several years in bringing what was a post-Yugoslav, 
largely hollowed-out military with very little readiness to 
defend territory and taken it to a level where now they are 
both much more capable to do territorial defense but also to 
contribute in a meaningful way to international missions and to 
have their troops integrate well, as they do in Afghanistan 
where they not only participate honorably in Mazar-e-Sharif in 
the north under fairly tough conditions, but where Montenegro 
is also--and this is interesting--where it has decided to 
deploy together with other members of the Adriatic Charter 
organization, so together with Croatia and some other 
countries, Macedonia as a symbol of sort of bringing the 
western Balkans region together. And they have deployed, as I 
said, collectively to Afghanistan.
    So they have done a tremendous job, both on the military 
side and also in terms of the intelligence enterprise where 
they have again taken a root-and-branch approach both to 
institutions and personnel.
    Senator Johnson. Talk a little bit about their paramilitary 
force. Does that also factor into one of the reasons you are so 
supportive of their accession?
    Dr. Carpenter. If I understood you correctly, Senator, they 
do not have a paramilitary force. They have a capable military 
police company. They have capable support companies. The major 
component of their military, about 1,500 of the 2,000, are land 
forces, primarily structured around an infantry battalion. And 
then they have approximately 200 forces in their air force and 
approximately 300 for their navy.
    Senator Johnson. I do appreciate the fact that they are on 
the path of actually reaching that 2 percent of GDP threshold 
for military spending, but they are not there yet.
    I guess I will ask Secretary Yee. Does that send a very 
good signal as we are approving somebody coming into NATO and 
not meeting that threshold? Can you just kind of speak to that? 
It is just something that kind of struck me reading through the 
briefing materials.
    Mr. Yee. Yes. Thank you, Senator.
    One of the major emphases in the last NATO summit at Warsaw 
was on insuring that allies reaffirm their commitment to 
pledges they had made at the Wales Summit in 2014 to move 
towards the 2 percent target by 2024. And some allies, as you 
know, Senator, are doing better than others. There are about 
five allies now that are at the 2 percent level. The good news 
is that most of the allies, about 70 percent of the allies, are 
on track to meet the target by 2024. Montenegro is at about 
1.68. It has made a plan so that next year it will go up 
another few tenths of points. So they will be over 1.7 percent 
and by 2024 to meet the 2.0 percent.
    We certainly will keep on all of our allies to encourage 
them to move as quickly as possible to that goal. We will also 
help them, as much as we can, strengthen their economies so 
that they are better able to meet these kinds of obligations. 
And that is another bright spot in Montenegro's picture is the 
growth of the economy at about 3.5 percent.
    So there is a prospect, there is a hope they will be able 
to contribute more. We are certainly not satisfied, but we 
believe that by having Montenegro in NATO for all the reasons 
that my colleague, Dr. Carpenter, mentioned and were mentioned 
otherwise about the stabilization effect, it will also help 
Montenegro become more prosperous, more stable, and better able 
to contribute to security of the Alliance.
    Senator Johnson. Thank you, Secretary Yee.
    Senator Shaheen?
    Senator Shaheen. I actually do not have a lot of additional 
questions, but I do want to ask about the process here because 
one of the things that I think people are watching NATO right 
now in particular because of our presidential race. And so I 
wonder if you could talk about what kind of a signal we would 
send by expeditiously approving Montenegro's accession to NATO.
    Mr. Yee. Thank you, Senator.
    I think the first and the strongest signal will be that 
NATO remains committed to the open door, to inviting countries 
that meet the standards that are able to further the principles 
of the Alliance and to contribute to our collective security, 
our collective defense. That is an important signal for the 
countries themselves who are struggling to make difficult 
reforms, which are not always politically popular, but it is 
also a signal to countries outside of the region who may wish 
less than well towards the countries of the western Balkans. It 
sends a signal that we remain committed to the security of this 
region, that we are not simply leaving them alone. And it is 
also a signal I think of support for the integration process, 
the larger integration process of bringing these countries into 
the European family of democratic and stable and secure 
countries.
    Senator Shaheen. Dr. Carpenter?
    Dr. Carpenter. If I could just piggyback a little bit on 
what my colleague, Deputy Assistant Secretary Yee, has said, I 
think an additional consideration in terms of the speedy 
ratification of NATO membership for Montenegro has to do with 
some of the malign influence that Russia is exercising both in 
Montenegro and in the region. As I mentioned in my opening 
statement, they are backing both NGOs but also politicians in 
Montenegro who are opposed to NATO and running a disinformation 
campaign really about what NATO is all about and the benefits 
that it will bring to Montenegro. And so I think the sooner 
that Montenegro is brought into the Alliance, now that it has 
met all the benchmarks and it has made the difficult reforms 
and it has proven that it is capable of modernizing its 
military and aligning its foreign policies with those of NATO, 
I think the sooner we put this aside and show that Montenegro 
is moving on with its membership in the Alliance.
    Senator Shaheen. Thank you, I could not agree more. I think 
it is an important message not just to our allies but also to 
Russia as we look at the future of NATO.
    Senator Paul?
    Senator Paul. Thank you, and thank you to the panel for 
your testimony.
    It is sad and was sad in the opening that NATO is not about 
a specific opposition to a specific country or threat, but 
there certainly seems to be a lot of discussion of Russia in 
this admitting a new country into NATO. Do you see no negative 
aspects to admitting Montenegro into NATO, Mr. Yee?
    Mr. Yee. Thank you, Senator, for the question.
    I do not see any negatives in terms of U.S. interests for 
admitting Montenegro into NATO, only positives.
    Senator Paul. And you mentioned that we are sending a 
message that nobody gets to veto. You know, we are sending this 
tough guy message. You want to send them a louder message? Why 
do you not admit Georgia?
    Mr. Yee. So, Senator, thank you for the question.
    We do support the aspirations of Georgia to join NATO.
    Senator Paul. And you think there is no negative to 
admitting Georgia into NATO as well?
    Mr. Yee. We support their aspirations to join NATO, 
Senator.
    Senator Paul. Part of Georgia is occupied, right, by 
Russia?
    Mr. Yee. Yes, and we support----
    Senator Paul. So if we admitted Georgia into NATO and they 
said, well, what about article 5, we would be at war with 
Russia. It sounds like there are profound implications to 
admitting Georgia into NATO.
    Mr. Yee. There would be implications. There are 
implications for admitting any country into NATO.
    What I would say, Senator, is that what NATO allies agreed 
at the last summit in Warsaw is that the door remains open to 
Georgia, that Georgia continues to need to do its homework. It 
needs to prepare for membership. The consensus on which NATO 
operates in all of its decisions for admitting Georgia has not 
been met yet.
    Senator Paul. Who do you think it is more important to have 
diplomatic ties with? Russia or Montenegro?
    Mr. Yee. Senator, frankly I do not think it is a choice 
between diplomatic ties between one country or the other. We 
can have both.
    Senator Paul. Well, I would say that there is a down side 
and that if you want to have improved relations with Russia 
thumbing their nose or putting Georgia into NATO or trying to 
put Ukraine into NATO, there are ramifications to this. And 
these are not just benign things. Oh, hey, we all want to be 
democrats and let us all join NATO. There are ramifications. 
And for us to think that this is an exercise in, hey, we are 
going to thumb our nose at Russia, you know, we are in the 
middle of a conflict in Syria where, by most analysis, 
including the administration, Russia is part of the solution. 
Russia may be also part of the problem, but ultimately they are 
probably part of the solution.
    And I just do not think it is very realistic, and I think 
it is sort of an arrogant, one-sided view of the world to 
think, oh, hey, let us just have everybody in NATO. Why do we 
not get all the ``stan'' countries north of Afghanistan and ask 
them to be part of NATO? You know, I mean, are there 
ramifications to getting all the Soviet satellite countries 
into NATO? Sure, there are.
    And so I think we need to think this through, and we need 
to have a little bit more of a debate rather than a rah, rah, 
rah, let us put everybody in NATO. I think admitting Georgia 
into NATO would be a huge disaster and would be a huge step 
back if you want to have any kind of Russian help in resolving 
what happens in Syria.
    So I do not know. I think that we could have heard another 
side in this hearing as far as a more balanced approach to 
whether or not there are ramifications. I think to say there no 
ramifications of admitting Montenegro--it is a small country. 
So it is not nearly as great a ramification as Georgia, but to 
say that there are none, and that our avowed purpose is really 
to tell Russia you cannot tell us what to do, sounds a little 
schoolyard-ish to me and maybe not all completely thought 
through or a balanced opinion.
    So you are both free to respond.
    Mr. Yee. Senator, if I could say, I would agree there are 
certainly ramifications to admitting any country into NATO, and 
I certainly did not mean to imply there were not. My answer was 
that I do not believe there are any negative down sides for the 
United States' interests in admitting Montenegro. And I would 
also say that all countries that wish to join NATO need to be 
evaluated for their candidacy for admission into NATO 
individually on their merits and in due course, not all at 
once, and not together as a group. We do weigh very carefully, 
Senator, the ramifications, the consequences. We consider it 
the most solemn commitment one nation can make to another in 
admitting a country into NATO. But we believe that it is a 
decision for NATO and the aspirant countries themselves to 
make, that no country should have a veto over the decision.
    Senator Paul. I think it is a little bit Pollyannaish also 
to believe that this is a mutual treaty. This is the U.S. 
protecting other countries. We are NATO. And so I think really 
we are looking at a tiny little country that we take all of the 
risk to protect Montenegro or we take all of the risk to defend 
Georgia or Ukraine.
    I do not think these are really a two-way street. I think 
this is kind of a one-way street. We are the ones that spend 
all the money on our military. We spend more on our military 
than the next eight countries combined. There is a lot of talk 
on spending 2 percent, but these people spend a minuscule 
amount, not just Montenegro but all of NATO. And so I think 
there does need to be a discussion. Is it important for Europe 
to stick together? Is it more important for Europe to maybe 
have an alliance with Montenegro? Probably. But, you know, we 
borrow $1 million a minute. We have a $20 trillion debt. And I 
think we ought to think through whether it is a two-way street 
or whether it is a one-way street where we are going to be 
picking up the tab for the rest of the world.
    Dr. Carpenter, you had a comment?
    Dr. Carpenter. Senator, I was just going to say that the 
percentage of NATO's common funding that the United States 
contributes is about 22 percent. So it is larger than any other 
ally for sure.
    However, going back to your comment about Montenegro, its 
small economy, small military, small country, what I would say 
is that the accession of Montenegro to NATO is not primarily 
about thumbing a nose at Russia. Certainly Russia is not 
pleased that Montenegro is joining, but Montenegro is 
fundamentally joining on its own merits. So it has made the 
difficult reforms both to the defense and the intelligence 
sectors and to its rule of law institutions, but it has also 
been with us in Afghanistan for these past 10 years and it has 
been an independent country. So it has demonstrated its 
solidarity in that way. It has adopted sanctions against Russia 
for its actions in Ukraine, which it did not have to do, but 
again to show solidarity with NATO and EU countries. So they 
have shown that they have been with us, and although they are 
small and their military capabilities are what they are, they 
have been with us for this time. And so I think the important 
point is they are judged on their own merits here and not as a 
rebuke or as a thumbing of nose at Russia.
    Senator Shaheen. Again, I am going to recess for a few 
minutes until Senator Johnson gets back to officially close the 
hearing, but I want to thank both of you for your testimony 
today and hopefully we can move this forward as expeditiously 
as possible in the Senate. Thank you.
    If Senator Johnson does not come back in about 10 minutes, 
you are dismissed. You are on your own. [Recess.]
    Senator Shaheen. Senator Risch, do you have questions?
    Senator Johnson. Again, I apologize for delaying the 
hearing here.
    One of the things I do like to do is give witnesses a 
chance, before we close out the hearing. If there is any 
additional information you want to provide committee, any 
further statements, I am happy to do that. Either of you? Okay.
    I have got to get the magic words.
    Again, I would like to thank the witnesses then for your 
thoughtful testimony. I do want to express my appreciation for 
the Ambassador of Montenegro for attending the hearing and 
certainly everything your country has done to reach this 
milestone. I certainly want to wish you all the best. We want 
to be as supportive as possible.
    For the information of the members, the record will remain 
open until the close of business on Friday, including for 
members to submit questions for the record.
    With that, this hearing is closed, is adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record


         Open Letter to President Obama and the U.S. Congress 
          Urging Quick Action on Montenegro's Entry into NATO

                 Submitted by: War On The Rocks (WOTR)

                             June 20, 2016

    On May 19, 2016, Montenegro signed the Accession Protocol to join 
the North Atlantic Treaty Alliance (NATO) as its 29th member. We 
believe that Montenegro is prepared to undertake the commitments and 
obligations of membership, and to contribute to security in the Euro-
Atlantic area. We therefore urge the Obama administration and Congress 
to move forward with the ratification of this Protocol as soon as 
possible, ideally by the end of the year.
    Since joining the Partnership for Peace program in 2006 and the 
Membership Action Plan in 2009, Montenegro has demonstrated a strong 
commitment to Euro-Atlantic integration. Montenegro has built a small 
but capable military and reformed its security services to meet NATO 
standards. The nation has made significant progress in addressing 
domestic issues related to the rule of law, corruption, organized 
crime, and security sector reform. Montenegro has been a reliable 
partner, supporting NATO-led missions in Afghanistan, and it continues 
to support the Resolute Support Mission by training, advising, and 
assisting Afghan forces. Additionally, Montenegro has joined NATO 
allies in all major policy decisions, including sanctions imposed in 
the wake of Russia's intervention in Ukraine. Montenegro's entry into 
NATO will help ensure its long-term stability, sovereignty, and 
security--and will help advance the agenda of stability and security in 
southeastern Europe.
    This effort has broad bipartisan support. Vice President Biden 
agreed, ``Montenegro's NATO membership will be a significant milestone 
in integrating the Balkans into Euro-Atlantic institutions and 
contribute to stability, security, and prosperity in the Balkans.'' And 
as Senator John McCain has said, ``Montenegro's membership to NATO 
could be a driving force of stability in the region.''
    Montenegro's NATO membership would also demonstrate the credibility 
of NATO's ``open door'' policy based on Article 10 of the Washington 
Treaty, which for two decades has underscored the importance of 
sovereign nations freely choosing their own path. Moreover, it would 
clearly reject the notion that any third party would possess a de facto 
veto on NATO enlargement--a decision left solely to the North Atlantic 
Council and the aspirant country in question. As NATO Secretary General 
Jens Stoltenberg has put it, ``Montenegro's membership will demonstrate 
to all those who aspire to membership that if a country delivers, so 
does NATO. Our door remains open.''
    The progress made by Montenegro and its significance for the 
Western Balkans, a region that has been long held back by instability 
and conflict, demonstrates the clear transformative power of democratic 
alliances and Euro-Atlantic integration. In times of regional and 
international volatility, supporting and strengthening alliance 
structures that promote common, rules-based approaches and 
understanding is critical. Montenegro's accession to NATO would be 
another important step in this effort, and is why we urge President 
Obama and Congress to move forward with ratification of Montenegro's 
NATO Accession Protocol as quickly as possible, so it can be done by 
the end of 2016.

Jeremy Bash, former CIA Chief of Staff (2009-11), former Chief of Staff 
        to the Secretary of Defense (2011-13)

Hans Binnendijk, former NSC Senior Director for Defense Policy and Arms 
        Control (1999-2001)

Stephen Biegun, former Executive Secretary, National Security Council 
        2001-03; Former Staff Director, Senate Foreign Relations 
        Committee 1999-2001

General Philip Breedlove (USAF, ret.), former Supreme Allied Commander, 
        NATO (2013-16)

Ambassador Sue Brown, former U.S. Ambassador to Montenegro (2011-2015)

Ian Brzezinski, former Deputy Assistant Secretary of Defense for Europe 
        and NATO Policy (2001-05)

Ambassador William Burns, former Deputy Secretary of State (2011-14)

Ambassador Richard Burt, former Assistant Secretary of State for 
        European and Canadian Affairs (1983-85)

Derek Chollet, former Assistant Secretary of Defense for International 
        Security Affairs (2012-15)

Ambassador Paula Dobriansky, former Under Secretary of State for Global 
        Affairs (2001-09)

Karen Donfried, former NSC Senior Director for European Affairs (2013-
        14)

Eric Edelman, former Under Secretary of Defense for Policy (2005-2009)

Ambassador Julie Finley, former U.S. Ambassador to the OSCE (2005-09)

Evelyn Farkas, former Deputy Assistant Secretary of Defense for Russia/
        Ukraine/Eurasia (2012-15)

Michele Flournoy, former Under Secretary of Defense for Policy (2009-
        11)

Richard Fontaine, former Foreign Policy Advisor to Senator John McCain 
        (2004-09)

Jeff Gedmin, former President and CEO, Radio Free Europe/Radio Liberty 
        (2007-11)

Ambassador Robert Gelbard, former Presidential Special Representative 
        for the Balkans (1997-99)

Philip Gordon, former Assistant Secretary of State for European Affairs 
        (2009-13)

Stephen Hadley, former National Security Advisor (2005-09)

Chuck Hagel, former Secretary of Defense (2013-15)

Michael Haltzel, former Democratic Staff Director, Subcommittee on 
        European Affairs, Senate Foreign Relations Committee

Kathleen Hicks, former Principal Deputy Under Secretary of Defense for 
        Policy (2012-13)

General James L. Jones (USMC, ret.), former Supreme Allied Commander, 
        NATO (2003-6)

David J. Kramer, former Assistant Secretary of State for Democracy, 
        Human Rights and Labor (2008-09)

Ambassador Michael McFaul, former U.S. Ambassador to Russia (2011-14)

James N. Miller, former Under Secretary of Defense for Policy (2012-14)

Sally Painter, former Senior Advisor to The Secretary of Commerce and 
        Secretary of State

Kori Schake, former NSC Director for Defense Strategy and Requirements 
        (2001-05)

Julianne Smith, former Deputy National Security Advisor to the Vice 
        President (2012-13)

Admiral James Stavridis (ret.), former Supreme Allied Commander, NATO 
        (2009-13)

Ambassador Kurt Volker, former U.S. Ambassador to NATO (2008-09)

General Chuck Wald (USAF, ret.), Deputy Commander, U.S. European 
        Command (2003-2006)

Damon Wilson, former NSC Senior Director for European Affairs (2007-09)



                               __________

            Responses to Additional Questions Submitted to 
  Deputy Assistant Secretary of State Hoyt Brian Yee by Senator Corker

    Question 1.  Has tobacco smuggling in or through Montenegro been a 
serious problem in the past? If so, can you estimate the value and 
volume of illicit tobacco and tobacco products smuggled in or through 
Montenegro in each of the past fifteen years?

    Answer. Following the dissolution of Yugoslavia and imposition of 
sanctions on the Milosevic regime in the late 1990's, Montenegro 
experienced prevalent tobacco smuggling throughout the country. The 
Department of State does not have reliable data on smuggled volumes.

    Question 2.  Were officials of the Montenegrin government complicit 
in tobacco smuggling over the past fifteen years? If so, please 
describe the levels to which this complicity rose in the Montenegrin 
government?

    Answer. Despite historical allegations that government officials 
were complicit in cigarette smuggling, the Department of State is aware 
of only one official case in the last 15 years, and this case did not 
result in a conviction. Specifically, according to an indictment filed 
by an Italian prosecutor in Bari many years ago, Prime Minister 
Djukanovic was allegedly involved in a tobacco-smuggling operation that 
spanned the period from 1994 to 2002. However, the Department has no 
knowledge of any senior Montenegrin official, including Prime Minister 
Djukanovic, ever being convicted of any tobacco-smuggling related 
offenses.

    Question 3.  To what extent is tobacco smuggling in or through 
Montenegro a problem today? Please include in this answer an estimate 
of the value and volume of illicit tobacco and tobacco products that 
will be smuggled in or through Montenegro this year.

    Answer. Montenegro continues to struggle with a black market for 
smuggled goods, including cigarettes, although the Department of State 
does not have reliable data on smuggled volumes. According to the 
Police Directorate of Montenegro's November 2013 ``Serious and 
Organized Crime Threat Assessment (SOCTA),'' and the 2015 supplemental 
mid-term SOCTA review, tobacco smuggling still occurs throughout 
Montenegro. The Police Directorate identified the Port of Bar as the 
main transit point for illicit cigarettes. Cigarettes are typically 
smuggled into Montenegro for transit to a final destination in an E.U. 
country using false excise stamps coupled with falsified documents. The 
Police Directorate states that cigarette smuggling through Montenegrin 
territory has actually increased recently due to an increase in excise 
taxes in bordering countries.
    In addition to transit routes, a portion of smuggled cigarettes are 
intended for the Montenegrin market, with the authorities noting that 
these cigarettes were distributed across points of sale in the majority 
of Montenegrin towns. These cigarettes are usually sold without any 
excise stamp, or have excise stamps from neighboring countries such as 
Serbia, Croatia, and Albania.
    An American tobacco producing company funded its own independent 
survey through AC Nielsen in 2014, which estimated that 30.9 percent of 
cigarettes consumed in Montenegro are smuggled into the country from 
non-domestic sources, with the highest consumption of non-domestic 
cigarettes in Podgorica (36.6 percent.) In addition, the survey 
registered a small number of counterfeit packs (0.4 percent.)
    The Police Directorate's Assessment also noted the smuggling of 
cigarettes legally produced in Montenegro to other destinations, with 
the Port of Bar taking a prominent role.

    Question 4.  Are any officials of the Montenegrin government 
complicit in tobacco smuggling today? If so, please describe the levels 
to which this complicity rises in the Montenegrin government?

    Answer. The Department of State has no information that would 
indicate that government officials are complicit in tobacco smuggling 
today.

    Question 5.  Are you satisfied that the Montenegrin government 
today is fully committed to combatting illicit tobacco trafficking?

    Answer. The efforts of Montenegro's Customs Administration and 
Police Directorate, coupled with establishment of the new Office of the 
Special State Prosecutor, which has shown itself to be committed to 
tackling all forms of organized crime, demonstrate the government's 
firm commitment to combatting illicit tobacco trafficking.

    Question.  What specific steps has the Montenegrin government taken 
to combat illicit tobacco trafficking?

    Answer. The Police Directorate of Montenegro published a November 
2013 ``Serious and Organized Crime Threat Assessment (SOCTA),'' and a 
2015 supplemental mid-term SOCTA review. The Police Directorate states 
that as cigarette smuggling through Montenegrin territory has increased 
due to an increase in excise taxes in bordering countries, law 
enforcement attention has also increased, producing seizures of larger 
quantities of smuggled cigarettes. Montenegrin Customs reported that in 
2015, 6.85 million cigarettes were seized, a major increase from 1.49 
million in 2014.
    Large quantities of cigarettes legally produced in Montenegro were 
also seized on their path toward Greece and Italy. Through more 
intensive controls in 2014 and 2015, law enforcement agencies of 
Montenegro (notably the Customs Administration and Police Directorate) 
seized over six million such cigarettes.

    Question 7.  What specific steps has the United States government 
taken to combat illicit tobacco trafficking in or through Montenegro?

    Answer. U.S. Embassy Podgorica has facilitated law enforcement and 
customs training and equipment donations to assist the Government of 
Montenegro's enhanced efforts to target cigarette smuggling. In 
addition, the U.S. Embassy, as an active member of the American Chamber 
of Commerce in Montenegro (AmCham), provides support to the AmCham Grey 
Economy Committee, which specifically addresses ways to prevent 
cigarette smuggling.
    U.S. Embassy Podgorica's Export Control and Border Security (EXBS) 
Program--with a main focus on stopping, identifying, and interdicting 
Weapons of Mass Destruction (WMD), WMD components, and arms and 
munitions--donates video scopes and density meters to Montenegrin 
customs officials to discover contraband and hidden compartments. EXBS 
also conducts specialized training in interdicting contraband and the 
current trends in smuggling techniques and modus operandi in both the 
United States and Europe. The EXBS program has donated over $4 million 
in equipment and interdiction training that can also be used to 
interdict cigarette smuggling. According to interdiction reports the 
EXBS program receives from Customs and Border Police, the majority of 
seizures consist of narcotics and cigarettes.
    Similarly to EXBS, U.S. Embassy Podgorica's International Criminal 
Investigative Training Assistance Program (ICITAP) office has not 
engaged in any training or donations specifically directed at cigarette 
smuggling. However, ICITAP assists Montenegro to combat organized crime 
groups in Montenegro that engage in narcotics, cigarette, weapons, and 
human trafficking. As part of the overall strategy to assist 
Montenegrin police in the investigation of organized crime groups, 
ICITAP has provided many training courses. These include: Organized 
Crime Investigations, Public Corruption Investigations, Financial 
Investigations, Informant Management, Major Case Management, Undercover 
Operations, and many others. ICITAP has also provided training, support 
and expert advice to the newly formed Special Organized Crime and 
Corruption Unit, and will continue to do so over the next two years.
    The Department of State's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) office in Podgorica conducted a series of 
four cross-border trainings during the past three years for 
prosecutors, judges, and police, which focused, respectively, on the 
borders of Albania, Bosnia and Herzegovina, Kosovo, and Serbia. Each 
included training on fighting cigarette smuggling. More generally, INL 
has provided extensive training for hundreds of police, prosecutors, 
and judges, as well as administrative officials, including customs, 
tax, anti-corruption agency, and inspection authorities, on fighting 
organized crime.


                               __________

            Responses to Additional Questions Submitted to 
  Deputy Assistant Secretary of State Hoyt Brian Yee by Senator Cardin

    Question 1.  I understand that Montenegro made strides in 
addressing corruption as part of its reform effort to join NATO. In 
2015, the Transparency International corruption index ranked Montenegro 
61st out of 168 countries. In your assessment, what does Montenegro 
still need to do in order to address corruption? How will you maintain 
pressure on Montenegro to continue with this important reform process?

    Answer. We work closely with Montenegro to support its efforts to 
combat organized crime and corruption. Several key developments in 
recent years have moved into the implementation phase, and we will 
closely monitor their progress.
    One important step in the last year has been the establishment of a 
new independent Special State Prosecutor's Office to handle major cases 
including organized crime and corruption. The new Special Prosecutor 
and supporting special police unit are based in part on the FBI model, 
and are supported by a U.S. Embassy team of rule of law and police 
advisors funded through U.S. development assistance. The Special 
Prosecutor has made numerous high profile arrests, including those with 
links to senior officials in the ruling party. The Special Prosecutor 
has already negotiated a number of plea agreements, which secure quick 
convictions and prison sentences, yet do not preclude further 
prosecutions for other crimes, or further financial investigations and 
asset seizures under a new asset recovery law. In all, the Special 
Prosecutor opened 991 cases in its first year, more than half of which 
are already resolved. The United States will continue to encourage all 
parties to support the work of the Special Prosecutor.
    In January 2016, Montenegro's new Agency for the Prevention of 
Corruption began operations, and in June, Montenegro's parliament 
appointed five individuals, including a vocal anti-corruption civil 
society activist, as members of the Anti-Corruption Agency Council. 
Both entities have important mandates, and we will follow their 
progress closely.
    Similarly, the government is implementing two new laws to help 
combat corruption. The Law on the Confiscation of Proceeds from 
Criminal Activities provides for expanded procedures for the freezing, 
seizure, and confiscation of illicit proceeds. It also authorizes the 
creation of multi-disciplinary Financial Investigation Teams. The Law 
on the Center for Training of the Judiciary and State Prosecutor's 
Office created a new independent judicial training institute, with 
greatly expanded powers and autonomy. We continue to work closely with 
the Montenegrin government as it implements these laws, and also 
provide technical assistance.
    We have supported Montenegro's participation in NATO's Building 
Integrity conference, an important part of NATO's framework to address 
and combat corruption. We have also encouraged transparency and 
accountability as part of the Strategic Defense Review process. In 
addition to our bilateral engagement, NATO will continue its engagement 
with Montenegro to support its ongoing defense reforms. Montenegro has 
been moving steadily toward European Union (EU) membership since its 
candidacy was officially opened in 2012, and the E.U. accession process 
also entails significant institutional reforms.

    Question 2.  Montenegro has also taken steps to improve the rule of 
law throughout the accession process. How would you characterize their 
most significant achievements on these issues? What work remains to be 
done?

    Answer. Countering corruption is one essential part of improving 
the rule of law. The establishment of an independent Special State 
Prosecutor's Office to handle organized crime and corruption cases was 
a major step forward. The Special Prosecutor has successfully 
prosecuted a number of public officials, including those with links to 
senior officials in the ruling party, sending a clear signal that no 
one is above the law. Free and fair elections are critical as well. 
U.S. Embassy Podgorica facilitated an ``agreement on electoral 
confidence'' in 2016 between the government and the opposition which 
will ensure the appropriate political landscape for Montenegro to hold 
free and fair elections. According to the Organization for Security and 
Cooperation in Europe (OSCE), Montenegro has developed the 
administrative framework to ensure a transparent and legitimate 
process, and all agencies responsible for the elections appear to be 
fully engaged and are completing their requisite tasks.
    We support ongoing efforts to continue to improve the rule of law 
in Montenegro, recognizing the many sectors in which ongoing reform 
will be necessary. In fiscal years 2015 and 2016, we are providing 
$3.25 million in technical assistance to support Montenegrin efforts to 
strengthen the rule of law and combat corruption. We are programming 
$876,000 in additional fiscal year 2015 assistance to support 
investigative reporting and civil society advocacy related to rule of 
law and counter corruption efforts, help ensure media independence, 
counter Russian pressure, and diversify Montenegro's trade and energy.

    Question 3.  Prime Minister Milo Djukanovic has been in power, 
either as Prime Minister or President since 1998. Do you have concerns 
with the democratic process in Montenegro? Have democratically-oriented 
political parties been afforded adequate space to compete in 
Montenegro?

    Answer. Montenegro is a mixed parliamentary and presidential 
republic with a multiparty political system. Voters choose both the 
president and the unicameral parliament through popular elections. The 
country's 2013 presidential elections were described by the 
Organization for Security and Cooperation in Europe (OSCE) as 
professionally and efficiently administered but also characterized by a 
blurring of the lines between the state and the ruling Party of 
Democratic Socialists (DPS). The country's upcoming 2016 parliamentary 
elections, which will be the first exercise for implementing 
Montenegro's new electoral legislation, designed to counter electoral 
fraud and build voter confidence, are expected to improve Montenegro's 
democratic process and address some of the irregularities raised by the 
OSCE.
    Montenegro has a plethora of political parties with strong 
ideological divisions. In May, for the first time in its history, the 
ruling party invited opposition parties to join the government and 
placed opposition members at the top of several key ministries. This 
``agreement on electoral confidence'' was an effort to inject 
transparency into the electoral process and build public confidence 
ahead of the October 16 parliamentary elections. Although in early 
August, opposition party United Reform Action (URA) decided to exit the 
agreement, its ministers did not resign from the government, nor did 
URA's opposition partners Demos and Social Democratic Party (SDP) 
withdraw. The opposition parties have said they will participate in 
Montenegro's October 16 parliamentary elections. With their 
representatives in the government of electoral confidence and 
international observers in place to monitor the elections, opposition 
parties should be able to participate freely and fairly.

    Question 4.  I understand that Russia sought to exert considerable 
pressure on Montenegro throughout this invitation and accession 
process. Could you describe the actions of Russia or Russian backed 
groups to influence Montenegrin public opinion? What form did it take? 
How much did Moscow spend on these efforts? Did Russia exert any form 
of military or diplomatic pressure on Montenegro?

    Answer. Following NATO's decision to admit Montenegro to the 
Alliance, Moscow threatened economic sanctions against Montenegro. To 
its credit, the Montenegrin government has stood strong and repeatedly 
asserted its sovereign right to choose its own alliances.
    Backed by Russia, the radical Democratic Front (DF) opposition 
group has worked hard to undermine the pro-NATO, pro-EU Djukanovic 
administration. In the fall of 2015, the DF organized a series of 
protests demanding the removal of Prime Minister Djukanovic, which 
turned violent when protesters attacked police. The protests lasted 
months but failed to attract more than 4,000-5,000 protesters at their 
height.
    Over the past year, Russian officials have increased their anti-
NATO rhetoric toward Montenegro. Russian Deputy Prime Minister Rogozin 
stated that Montenegrin leadership would ``regret their decision'' not 
to hold a public referendum on NATO membership. Recently, the Russian 
Duma has written NATO member country parliaments to discourage 
Montenegro's accession.
    Russia has likely also attempted to influence public opinion by 
securing editorial input into Montenegrin news media in the form of 
lucrative advertising contracts for the DF. While other political 
parties are also increasing their ad spending, these contracts have 
been in the hundreds of thousands of euros, well exceeding market 
rates. It appears that despite the strong economic incentive, offers 
that would include editorial input have been rejected.
    The U.S. government actively counters Russian messaging and, more 
generally, supports progress on rule of law in Montenegro. In Fiscal 
Years 2015 and 2016, we are providing $3.25 million in technical 
assistance to strengthen the rule of law and combat corruption, 
including those activities that trace back to Russia.

    Question 5.  Montenegro's accession will also send a positive 
signal to other Balkan countries at a particularly critical time. Of 
greatest and most immediate concern right now is Bosnia. The Bosnian 
entity of Republika Srpska is planning to hold a referendum on 
September 25 which, on the surface, seems to be little more than an 
opinion poll regarding an official holiday. More deeply, however, this 
is a challenge both to the authority of the country's constitutional 
court, which ruled against the holiday, and to the international 
community's resolve and ability to enforce Dayton implementation if 
necessary. The referendum could set the stage for a more substantial 
challenge and confrontation in the future.
    What are we doing about this referendum, and why is the 
international community seemingly hesitant to use the powers it retains 
in the face of such dangerous recalcitrance? More broadly, where is 
Bosnia at present regarding NATO?

    Answer. The United States and the international community have 
invested heavily in bringing peace, stability and prosperity to Bosnia 
and Herzegovina (BiH), and we remain committed to the Dayton Peace 
Agreement. We are working closely with all our partners to devise a 
coordinated and effective response to the illegal referendum organized 
by leadership of the Republika Srpska in direct contravention of the 
Constitutional Court of BiH. We urged Republika Srpska authorities to 
respect the Constitutional Court's decision to suspend the referendum. 
We are also encouraging all sides to deescalate their rhetoric. 
Ambassadors of the Peace Implementation Council have reaffirmed their 
support for the Dayton Peace Agreement and their unequivocal commitment 
to the territorial integrity and fundamental structure of BiH as a 
single, sovereign state.
    The 2010 Tallinn conditions state that BiH must register 63 
immovable defense properties to the state-level government to activate 
its Membership Action Plan (MAP). BiH has registered 24 of these 
defense properties in the Federation, but none in the Republika Srpska. 
The United States does not support a loosening of the Tallinn 
conditions at this time. Despite the stalled progress on MAP, we are 
encouraged by the Bosnian government's decision to finalize its long-
delayed Defense Review, which will allow for deeper engagement with 
NATO in the absence of MAP activation.

    Question 6.  Where do each of the other countries currently 
aspiring for NATO membership stand, given NATO's open door policy? What 
reforms is the Alliance suggesting need to be made before an invitation 
is given? Are these countries undertaking the requested reforms?

    Answer. NATO actively promotes the Open Door policy, and counsels 
each of the aspirants on ways they can advance their candidacies. 
Specifically, at the NATO Summit in July, Allied Heads of State and 
Government tasked the North Atlantic Council to prepare a report on the 
Alliance's activities in the Western Balkans for submission to Foreign 
Ministers in December. This proves that the Open Door policy is not a 
checklist, but an active mentorship project. These nations are not just 
aspirants; they are partners of the Alliance.
    In 2010 Allies established the Tallinn Condition for Bosnia and 
Herzegovina (BiH). Allies agreed to activate BiH's Membership Action 
Plan (MAP) when it registers all its defense properties to the state. 
This requirement has a purpose: to demonstrate that BiH has a fully 
functioning, inclusive government, capable of the decision-making 
required of an Ally. Twenty-four are currently registered. However, 
none of these are located in Republika Srpska. Allies are pressing BiH 
to tackle this admittedly more challenging task, while also continuing 
with needed defense reforms. NATO actively supports BiH's path to 
membership via its Headquarters in Sarajevo, which facilitates reform 
efforts.Macedonia's primary impediment to accession remains the lack of 
a resolution to the name issue with Greece. In 2008, Allies agreed that 
Macedonia could only join NATO following a successful resolution of 
this dispute. U.N. Special Envoy Matthew Nimetz continues to work with 
both sides to come to an agreement. However, over the past 18 months, 
Allies have also expressed concern about democratic backsliding in 
Macedonia. Restrictions on free media, delays to elections, and the 
political crisis associated with the wiretapping scandal have driven 
Macedonia further away from NATO's democratic values. At the Warsaw 
Summit this year, NATO called upon all parties to honor the 2015 Przino 
agreement; elections are now scheduled for December of this year. 
Before November, the NATO International Staff will visit Macedonia for 
its in-country assessment of its Armed Forces. Macedonia has long 
participated in NATO operations, and it is in the United States and 
NATO's best interest to maintain a high level of interoperability.
    Allies also play a very active role in supporting Georgia's NATO 
membership aspirations. In 2008, Allies agreed that ``Georgia will 
become a member of NATO'' and this year in Warsaw, Allies noted 
``Georgia's relationship with the Alliance contains all the practical 
tools to prepare for eventual membership.'' While Georgia does not 
currently have a Membership Action Plan, it does have three unique and 
tailored avenues through which it engages with NATO. First, Georgia is 
one of only six Enhanced Opportunity Partners (EOPs). This status 
allows Georgia to participate in high-level, strategic discussions with 
Allies in the North Atlantic Council and at the Ministerial level. 
Georgia hosted the North Atlantic Council in a visit to Tbilisi earlier 
this month. Secondly, at the Wales Summit in 2014, Allies agreed on a 
set of deliverables for Georgia known as the Substantial NATO-Georgia 
Package (SNGP). The Package contains elements such as increased 
training opportunities, a NATO Joint Training and Education Center in 
Georgia, and a Defense Institution Building School. This year, Allies 
augmented the SNGP with additional initiatives, underscoring NATO 
Allies' commitment to moving Georgia toward membership. Nearly all 
Allies (26), plus Sweden and Finland, contribute to the SNGP. No 
aspirant past or present has received such a comprehensive package. 
Finally, since 2008 NATO has met with Georgia bilaterally--on a regular 
basis at all levels-in the NATO-Georgia Commission (NGC). The NGC met 
at this year's Summit in Warsaw and issued a statement in which Georgia 
pledged to do its part to advance its candidacy. Georgia reiterated its 
commitment to comprehensive reforms, including the execution of 
elections this fall in accordance with international democratic 
standards. Allies noted that Georgia's commitment to NATO and E.U. 
operations demonstrate its commitment and capabilities when it comes to 
Euro-Atlantic security.


                               __________





                                  [all]



</pre></body></html>
